HHS/OIG, Audit -"Payments for Services to Deceased Beneficiaries in Mississippi,"(A-04-02-07011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Payments for Services to Deceased Beneficiaries in Mississippi," (A-04-02-07011)
May 28, 2003
Complete
Text of Report is available in PDF format (571 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Department of Health and Human Services, Office of Inspector General, Office of Audit Services conducted an audit
of Medicaid payments made on behalf of deceased beneficiaries in Mississippi for federal fiscal years 1999 through 2001.  We
found that the Mississippi Division of Medicaid made overpayments totaling $105,553 (federal share $80,918) related to
recipients after their death.  These overpayments were due to a time lag between the recipients death and the recipients
Medicaid file update.  We recommended that the DOM recover and refund the federal share of the overpayment.